                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                   CLOSEOUT MEMORANDUM

    Case Number: M-99080041                                                                       Page 1 of 1



          Our office received an allegation that the subject' plagiarized text and figures from six separate
          source documents into a Small Business Innovation Research Phase I proposal he submitted to
          NSF. Although it is NSF's policy and practice to defer investigations to awardees whenever
          practicable, in this particular instance, there were two reasons why we chose not to defer the
          investigation. First, the institution is a small company with 4 employees that would have
          inherent conflicts of interests in conducting an objective investigation. Second, the company no
          longer employed the subject.

          Our investigation found that the subject had plagiarized text and figures froh the source
          documents. Based on our investigation, we recommended that NSF find that the subject
          committed misconduct in science. Our investigation report, the Deputy' Director's 11 March
          2002 letter reflecting his decision and this memo constitute the closeout for this investigation.




1                          war formerly employed .at -


7 I                           Agent            I         Attorney     I      Supervisor       I           AIGI

      Sign / date
                                NATIONAL SCIENCE FOUNDATION
                                     4201 WILSON BOULEVARD
                                    ARLINGTON, VIRGINIA 22230




     OFFICE OF THE
   D E P W DIRECTOR

 CERTIFIED MAIL --RETURN RECEIPT REQUESTED




Re: Notice of Misconduct in Science Determination



 The National Science Foundation (NSF) has concluded that you committed misconduct in
 science when you engaged in plagiarism in a proposal that you submitted to NSF's Small
 Business Innovative Research Program (SBIR) in 1999.

  Under NSF's regulations, "misconduct" is defined to include "plagiarism, or other serious
  deviation fiom accepted practices in proposing, carrying out, or reporting results fiom activities
  funded by NSF." 45 CFR $689.1(a). The NSF's Office of Inspector General's Investigation
  Report establishes that you copied text and figures fi-om six source documents in your proposal,
  without proper attribution and without the authors' permission. The report indicates that you did
  not provide citations to four of the six source documents. Although you did provide citations to
- two of the source documents, you did not distinguish the copied material in a manner which
  apprised the reader of the extent to which you verbatim copied text and figures fiom these source
  documents.

 By submitting a proposal to NSF that copies text of another without adequate attribution and
 distinction, and without the author's permission, you misrepresented someone else's work. .as
 your own. It also undermines the integrity of your proposal.

 I therefore have determined that your copying in an NSF proposal without providing appropriate
 attribution to the original authors' works constitutes plagiarism and a serious deviation fiom
 accepted practices under NSF's regulations. See 45 CFR $689.1(a). I also conclude that you
 acted recklessly when you failed to properly cite to the source documents or distinguish the
 copied material.

 In deciding what response is appropriate, NSF has considered the seriousness of the misconduct,
 whether it was deliberate or careless, whether it was an isolated event or part of a pattern, and
 whether the misconduct affects only certain funding requests or has implications for any
 application for funding involving the subject of the misconduct finding.' 45 C.F.R. § 689.2@).
I have considered several mitigating factors in this case. First, you did include citations to two of
the source materials even though you did not adequately disclose the extent of your copying fiom
the source articles. Second,at the time that the misconduct occurred, you were a relatively
inexperienced researcher. Third, the majority of the plagiarized material was in the background
section of your proposal. Fourth, I believe that you acted recklessly rather than intentionally..

In light of these mitigating factors, I am issuing this letter as an official reprimand. In addition, if
you are the principal investigator or co-principal investigator on any proposal submitted to the
National Science Foundation within one year from the date of this letter, you must submit to the
Associate Inspector General for Investigations, Ofice of Inspector General, National Science
Foundation, 4201 Wilson Boulevard, Arlington, Virginia, 22230, a copy of such proposal,
together with a written certification indicating that, to the best of your knowledge, your proposal
does not contain anything that violates NSF's scientific misconduct regulations at 45 CFR Part
689.

You indicate that you have learned a valuable lesson from this experience and I hope that this
will be an anomaly in your career. This finding of misconduct in science does not preclude you
fiom applying for NSF funding in the future or serving as a merit reviewer.

Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
decision, in writing, to the Director of the Foundation. 45 CFR §689.9(a). Any appeal should be
addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard, Arlington,
Virginia 22230. For your information we are attaching a copy of the applicable
regulations. If you have any questions about the foregoing,.please call Anita Eisenstadt,
Assistant General Counsel, at (703) 292-8060.


                                        Sincerely,    A




                            C/          Joseph Bordogna
                                        Deputy Director



Enclosures (2)
Investigative Report
NSF's Misconduct in Science Regulations
                        Confidential




     Office of Inspector General



                          OIG Case M99080041




This document is loaned to you FOR OFFICIAL USE ONLY. It remains the
property of the Office of Inspector General. It may not be reproduced. It may be
disclosed outside of NSF only by the Inspector General, pursuant to the Freedom
of Information and Privacy Acts, 5 U.S.C. $§ 552,552a.
                    REPORT OF INVESTIGATION INTO AN ALLEGATION OF
                                MISCONDUCT IN SCIENCE
                                                                  1




            The Office of Inspector General (OIG) has concluded that the subject' plagiarized text
    and figures from six separate source documents into a Small Business Innovation Research
    (SBIR) Phase I proposal he submitted to the National Science Foundation (NSF). We
    recommend that NSF's Deputy Director send the subject a letter of reprimand informing him that
    NSF has made a finding of misconduct in science against him and that when proposals are
    submitted by him or on his behalf to NSF, he be required to submit a certification to OIG that, to
    the best of his knowledge, they contain nothing that violates NSF's Misconduct in Science and
    Engineering regulation. NSF should inform the subject that the certification requirement is in
    effect until 2 years have elapsed from the final disposition of this case.



            OIG received an allegation that the subject, an inexperienced researcher working at a
    small company: plagiarized material from six source documents into the proposal he prepared
    for submission to NSF by the company3 Copies of the relevant parts ofthe source documents
    and the NSF proposal are attached at Tabs 1 (Attachments A through F) and 2, respectively,
    with the identical text and figures underlined in red, labeled, and cross referenced between the
    source documents and the proposal. The NSF proposal contains approximately 5 pages of
    background material, including text and three figures, that is identical to material in the source
    documents. Two sections of text in the proposal contain a reference to the corresponding source
,   documents (Attachments D and F), but none of the identical material in the proposal is
    distinguished from other text in the proposal to show that it is not original to the subject.


                                                                               ived his B.S., M.S.,and Ph.D. in    1
                                                                                                                   I



    I. Attachments A through F:
    Attachment A -                             a-J)                                         (since the date that
       Attachment A was ~rinted.the figure on the website has been changed):




                                                     Page 1 of 10
,         Subject's Response to OIG's Inquirv

                  In the subject's response to our request for information: he attempted to explain why he
          had copied text and figures from multiple source documents. He said he did not "steal and pass
          off ideas of another as [his] omw6 but that he used the published literature to support his
          proposal.7 He explained that he did provide some references in his proposal but acknowledged
          that he ccshouldhave rephrased some of the cited material^"^ that he used. He explained he was
          part of a research groupg that published five of the six source documents and some of the
          materials he used were in re orts, publications, proposals and presentations that he was working
          on. His primary supervisorPowhen he was with the group, authored three of source documents
          and a second supervisor of the group11authored three. Consequently, because the subject felt he
          was part of the group, he did not request permission to use the information. He pointed out that
          half of the references he cited in his proposal were authored by one or both of the group's two
          supervisors "indicating again that their high quality works played an important role in my
          proposed ideas."12 Some of the publications he referenced in the proposal, he co-authored as
          part of the group. He stated that the ideas in the proposal were novel and resulted as a "spin-
          off"13 of his and the group's work.

                  With respect to Figure 1 and associated text in the proposal copied from source document
          A, the subject explained that it was an oversight on his part to not have provided the reference
          fiom the internet.14 With respect to materials copied from source documents B, C, and D," the
          subject provided examples of how he used his primary supervisor's writing as a "template,"16
          and commented on some of these examples, stating "[tlhis should not be considered
          plagiarism;" "I did not falsify information;" and "I credited the s ~ u r c e . " 'He
                                                                                             ~ explained that
          he had prepared the proposal just 2 weeks after leaving the group and "still felt very much a part
          of [hls primary supervisor's] group."18

                  While he was a member of the roup, he said it was "not uncommon to share the works,
          sometimes also including the writing."lF As an example, he said his primary supervisor authored
          a publication that included text copied from a proposal submitted to another federal agency2' by
          the second supervisor in the group. However, our review of the other agency proposal showed
          that both supervisors were listed in it as working on it. That agency only allowed the Principal
          Investigator to sign and date the Cover Page. Other participants are listed on an adjoining page.

              Tab3.
              Tab 4, page 3.
              Tab4.
              Id. page 3.
             The subject notes in his 8 September 2000 response that he was part of two research groups, but these "two groups
             were alwa s referred to as one" (Tab 4, page 2).
                             's a faculty member in the Department
    - o   Il.-                     a faculty member in the Departme
          "   l-aTqRigt-3'4.
          l3  Id.
          l4 See Tab 4, page 1.
          " Tab 1, Attachments B, C, and D.
          l6 Tab 4, page 1.
          l7 Id. page 2 (emphasis in original).
          'Id. page 2.
          I9 Id.
          20 Tab 1 , Attachment B; Tab 4, Attachment B.


                                                            Page 2 of 10
Therefore, the primary supervisor is a co-author of the other agency proposal and could
subsequently use this text as his own. The subject's explanation fails to prove shared usage of
unattributed text by other group members.

        With respect to the unattributed copied text from the graduate student's thesis (source
document E)," the subject explained that he "missed to add the referen~e.'"~He explained that
he provided the graduate student with "help and suggestions"23 and was acknowledged in the
thesis by the graduate student for his aid. The subject provided a copy of the acknowledgment
from the student's thesis24 Even though he was acknowledged in the thesis, it did not permit
him to copy the text without attribution into his NSF proposal.

        With respect to the unattributed copied text from source document ~ , he         2 said
                                                                                             ~ he
"missed to include the reference, but I did have the original author's referen~e."~~   As we noted
above, although the subject included references to both documents D and F within the section of
unattributed text he copied from each into his proposal, he did not indicate that the text had been
copied verbatim.

       The subject concluded his explanation by apologizing for the troublethat he might have
caused and stated that:

         [tlhis is my first proposal and it was not funded. I was one of the best and the
         most favorite post-doctoral research fellows of [the two supervisors]. I had made
         tremendous contributions to their groups, and I was even hired as a consultant for
         their private company. I did not ask for their permissions with the above
         mentioned reasons but I am confident that they could understand. Nevertheless,
         this incident taught me a good lesson; I will not glow myself to get into this kind
         of problem again.[271

Conclusion of OIG's 1nquiw.

        We concluded the subject admitted that he copied the material into his proposal without
attribution. His reasons for copying an extensive amount of text and figures from multiple
source documents into his NSF proposal were i n ~ ~ c i eton justify
                                                             t       his actions. We opened an
investigation.

        NSF primarily relies on awardee institutions to prevent and detect miscond~ct.~~       It is
OIG's policy and practice to defer investigations to awardees whenever practicable. In this
particular instance, there were two reasons why we chose not to defer the investigation. First,
the institution is a small company that would have inherent conflicts of interests in conducting an

-

21
   Tab 1. Attachment E.
22 Tab 4; page 3.
23 Id.
24 Tab 4, Attachment E.
25 Tab 1, Attachment F.
26 Tab 4, page 3.
27 ~ dpage
       . 4.
   45 C.F.R. 5 689.3(a).
                                            Page 3 of 10
objective investigation. Second, we learned that the subject no longer worked for the company.
Accordingly, we initiated our own investigation.




       We wrote to the subject informing him that we initiated an investigation." We requested
additional inf~rmation~~about the figures and further clarification about his initial responses to
our questions.

The Figures

       With respect to the copied internet figure and associated text, the subject stated that he
always provides "references for the technical information obtained from the internet."31 He
provided examples of when he had done this previously, but acknowledged, again, that he forgot
to include the reference for Figure 1 in his proposal. His response clearly shows that he
understood how to cite appropriately and that he had done so in the past.

        We repeated our questions to the subject about two other figures in his proposal that he
did not answer in our inquiry letter to him.32


Regarding Figure 6 in the subject's proposal, we asked the following:




                                                                      -
           We noted that the caption for figure 13 in source document D indicates that this
           figure was taken from                                          I and
          3-             Figure 6 in your proposal is identical to source document D's figure
            13, including the caption and the reference to its origin -(
            m-r.34                             However, we were unable to find this figure in
           the referenced source. It appears as if the original source document D's author
           provided an incorrect reference citation, which you copied without verification
           into your proposal. With respect to figure 6 in your proposal, did you verify that
           your proposal figure 6 was n.i-                         etal.,                and
                          If so, can you provide a copy of the page where this figure
           appears.?[351

The subject explained that he attempted to verify every single reference he cited in his proposal
but "[alpparently I missed this one."36 In fact, the subject "missed" this one as well as five other


29 See Tab.5.
30 Tab 6.
31 Tab 7, page 1.
32 Tab 3.
33   1
     .                                          -u--
     NY, 1988.
34 Id.
35 Letter to subject dated 15 December 2000 (Tab 6) at page 2.
36 Tab 7, page 3.


                                                  Page 4 of 10
source documents. In addition to copying this figure, he also copied an erroneous reference that
was part of the figure caption.

Regarding Figure 7 in the subject's proposal, we asked the following:

         Figure 4 in source document D is the same as figure 7 in your proposal. Figure 4
         in source document D states that the author received permission to use the figure
         ("Ref. 50 with permission"). However, you do not provide a reference for figure
         7 in your proposal. Did you request and receive permission to use this figure
         fiom the original authors of "reference 50" andlor the authors of source document
         D? If so, please provide this information andlor the person to contact to verify
         that you had permission.[371

The subject explained that he:

         added the reference of the original work, references 2 and 17 in the body of the
         description. The author of reference 2 had already presented the figure (Figure 7
         in my proposal) with permission.[381

         The subject referenced the article that contained figure 739 in the text of his proposal.
When he copied figure 7, verbatim, from the source document into his proposal, he failed to
appropriately cite it. Because the authors of source document D~~and "reference 50" worked as
part of the group with the subject, he thought he had permission to use this figure.41 The subject
used'this figure in his proposal without permission or appropriate attribution.

The Text

       In response to our request for examples of the subject's previous claim that "[slome of
these materials had appeared in proposals, reports, publications, and presentation that be] was
working on,"42 he provided eight examples to show that "some of the copied materials in [his]
proposal . . . had appeared in these doc~ments."~' However, his examples fail to show that the
copied text in his proposal was substantially similar to text already in published papers and
presentations on which he was a ~ o - a u t h o r . ~ ~

       Regarding the subject's unattributed use of text fiom a graduate student's thesis, the
subject contacted the former student via e-mail to ask for his belated permission to use the
information in his proposal. The student responded that this was acceptable.45 Nevertheless, it


''Letter i o subject dated 15 December 2000 (Tab 6) at page 2.
38  Tab 7, page 3.
39 Tab   1, Attachment D, page 3240, Figure 4.
40 Tab 1, Attachment D.
41 Tab 7, page 3.
42 Tab 4, page 4.
43
    Tab 7, page 1.
44 All the examples show that the subject and his co-authors had worked on some of these same projects. This is not
   an issue in this case.
45 Tab 7, Reference 5.

                                                  Page 5 of 10
would not have relieved the subject of his scholarly responsibility to attribute the text to the
student.

Company Contact

       The president46 of the company responded to our request for information47 and
explained4' that the company used the proposal preparation guidelines provided by the Small
                                                                                                '
Business Administration for the state where the company is located. He said that the proposal
ideas and preparation were the responsibility of the individual scientist. The president also
expressed his support of the subject and suggested that we should consider that the subject may
not have completely understood all aspects of proposal writing. The president said he did not
believe the subject did anything wrong intentionally and he should be given a chance to learn
from his mistakes. Finally, the president provided copies of two other declined proposals
submitted to other federal agencies by the subject while he was at the company, Proposals A and
a 49

       Proposal A. Proposal A was submitted about a month after the NSF proposal. It
proposes different research than, either the NSF proposal or Proposal B. Proposal A contained
about 13 lines of text in the back ound section that were essentially verbatim to the unattributed
copied text in the NSF proposal.5F We observed no additional material copied originally into the
NSF proposal that then appears in Proposal A. However, part of Figure 4 that the subject cited
appropriately in the NSF proposal is included as Figure 7 in Proposal A. He did not reference it
in Proposal A.

        Proposal B. Proposal B was submitted about 2 months after the NSF proposal and
1 month after Proposal A. Proposal B discusses different research than either of the other two
proposals. There are six lines of text on page 11 in Proposal B that are verbatim to unattributed
text copied in the NSF proposal and are different from the text copied in Proposal A." AS in the
NSF proposal, the unattributed copied text in Proposal B refers to two figures (figures 9 and 10).
In the NSF proposal, both figures are appropriately referenced (figures 8 and 9, respectively). In
Proposal B, neither figure is appropriately attributed.

        Proposals A and B contain text that is identical to unattributed copied text in the NSF
proposal. The subject either used the source document text as a template for all three proposals,
or used the NSF proposal as a template for his subsequent submissions. In either case, he copied
text without attribution. In addition, the subject also copied figures into Proposals A and B, that
he cited appropriately in the NSF proposal, but that he failed to cite in Proposals A and B.



-e                       president of the Company, as far as we know, is not related to the subject.
47Tab 8.
48Tab9.       '




     See Tab 9 for annotated copy - pages 6 and 7.
     See Tab 9 for annotated copy -page 1 1.
        NSF defines misconduct in science in relevant part as "[flabrication, falsification,
plagiarism, or other serious deviation from acce ted practices in proposing, carrying out, or
reporting results fiom activities funded by NSF."" For NSF to make a finding of misconduct in
science, a preponderance of the evidence must support the conclusions that the subject both
committed a bad act and did so with a level of culpable intent that justifies taking action against
the subject.53

The Act

       When a proposal a u ~ o copies
                                 r     material from another author's materials, the copied text
must be clearly cited to the source and marked by font, indentation, quotaion marks or other
means fkom the material he authored so that readers can distinguish text original to the author of
the proposal. If the proposal author describes in his own words another's idea, then a citation
alone is sufficient. In this case, the subject copied the authors' words and figures verbatim
without appropriate attribution.

     In submitting the proposal, the subject signed the following certification on page 2 of the
NSF Cover and Certification Pages:

        I certify to the best of my knowledge that . . .the text and graphics herein as well
        as any accompanying publications or other documents, unless otherwise
        indicated, are the original work of the signatories.or individuals working under
        their supervision. . . .

        I understand that the willful provision of false information or concealing a
        material fact in this proposal or any other communication submitted to NSF is a
        criminal offense (U.S. Code, Title 18, Section 1 0 0 1 ) . [ ~ ~ ~

By signing this certification the subject claimed the unattributed work of others as his own.
Based on a preponderance of evidence, we concluded that the subject copied text ahd figures
from the work of six others individuals without proper attribution into his NSF proposal. The
material appears in the background section of the NSF proposal. The volume and number of
sources involved are extensive.

State of Mind

         The subject explained that he 'missed' some of his references." He explained that he did
provide some references in his proposal but acknowledged that he "should have rephrased some
of the cited materialsMs6that he used. Further, he stated that he always provided "references for
the technical information obtained from"s7 the internet. His responses clearly show that he
understood how to cite appropriately and his previous publications support this position. We

'* (45 C.F.R. §689.1(a)(l).)
53 (45 C.F.R. §689.2@).)
"Cover Pages for NSF proposal (Tab 2), second page.
'' Tab 4, page 3.
56  Id. page 3.
''Tab 7, page 1.
                                               Page 7 of 1 0
believe the subject acted knowingly when he elected to use these materials without either
receiving permission fiom the original authors or distinguishing the copied material in his NSF
proposal or the other agency proposals.

OIG's Conclusion

        By definition, plagiarism is to "steal and use (the ideas or writings of another) as one's
own."58 w e conclude that the subject committed plagiarism when he took text and figures fiom
other authors' works and represented them as his own and he did this knowingly. Although he
did reference some of the source documents in the text of the proposal, he did so in a way that
did not indicate what text or figures he copied. The subject seriously deviated fiom the accepted
practice in the scientific community. A preponderance of the evidence supports the conclusion
that the subject committed misconduct in science, specifically verbatim plagiarism.



       Under NSF's regulation, when deciding what actions are appropriate when misconduct is
found, NSF officials should consider any evidence of a pattern, the seriousness of the
misconduct, the intent with which the subject acted, and finally its relevance to other funding
requests or awards involving the individ~al.~'

Evidence of a Pattern

        The subject copied 5 pages of unattributed text and 4 figures into an NSF proposal.
Similarly, he copied portions of the same unattributed text that appeared in his NSF proposal into
Proposals A and B. Further, three figures attributed appropriately in the NSF proposal were used
in Proposals A and B without appropriate citation. We conclude that Qkis is evidence of a
pattern of plagiarism by the subject involving 3 different proposals submitted to 3 different
federal agencies over a 3 month period of time.

Seriousness

       Representing the work of another as one's own without giving appropriate recognition to
the original author is viewed as a serious act in the scientific community, and the subject
committed misconduct in this case. What NSF expects fiom scientists and engineers who submit
proposals is clearly spelled out in the Grant Proposal Guide, specifically stating that

             NSF expects strict adherence to the rules of proper scholarship and attribution.
             The responsibility for proper attribution and citation rests with authors of a
             research proposal: all parts of the proposal should be prepared with equal care for
             this concern. Serious failure to adhere to such standards can result in findings of
             misconduct in science.


     The American Heritage Dictionary of the English Language,New College Edition, Houghton Mifflin Company,
     1976.
     .. -

S9   (45 C.F.R. § 689.2(b).)
60 NSF    98-2, Section A.3 and Section B, p. 1.
                                                   Page 8 of 10
       Although the scientific community routinely states that copied material should be
appropriately cited and distinguished:' the subject failed to appropriately cite and distinguish
material he copied verbatim from six source documents into his proposal.

Recommended NSF Actions

         Under 45 C.F.R. g 689.2(b) of NSF's misconduct in science and engineering regulation,
when deciding what actions are appropriate when misconduct is found, NSF officials must
consider the seriousness of the misconduct, the intent with which the subject acted, any evidence
of a pattern, and finally, its relevance to other funding requests or awards involving the
institution or the individual.

        We conclude the subject plagiarized, that this behavior was a serious deviation fiom the
practice of both the subject's research community as well as the broader scientific community,
and that it violated NSF's expectation of how proposals should be prepared.

        We recommend that NSF's Deputy Director take the following actions:

        (1) NSF should send a letter of reprimand to the subject stating that it has concluded that
            he committed a serious deviation from accepted practice and thus misconduct in
            science by plagiarizing in his NSF proposal.62

        (2) NSF should require that for 2 years from the date of the final disposition of this case,
            when the subject is a principal investigator or co-principal investigator on a proposal
            submitted to NSF for funding, the subject will certify in writing that he has recently
            reviewed NSF's Misconduct in Science re ulation (45 C.F.R. Q 689), and that the
            grant application is free of any misconduct.        W
The subject's certification should be sent to the Associate Inspector General for Investigations
for retention in OIG's confidential file on this matter.
        Our recommended action takes into account the extent of the subject's plagiarism, the
level of his experience, and the poor understanding he displayed when he used materials
generated by his former research group without appropriately citing it. In relation to other
examples of plagiarism, the subject's copying in his NSF proposal is compared to two cases of
plagiarism in NSF proposals determined to be misconduct by the Deputy ~ i r e c t o r .In~ this
                                                                                           ~ case,
the degree of copying is in the range between the two examples. In light of the subject's level of
experience and his apparent misunderstanding of how to appropriately use materials fiom his
"  See, e.g., M.C. LaFollette, Stealing Into Print Fraud, Plagiarism, and Misconduct in Scientific Publishing
  (Univ. of C A Press 1992) pp. 48-53; and references therein; Sigma Xi, The Scientific Research Society, "Honor in
  Science," 22 (1 984); and National Academy of Sciences, National Academy of Engineering, Institute of Medicine,
  "On Being a Scientist, Responsible Conduct in Research," National Academy Press, Washington, D.C., 1995.
62 This is a Group I action (see 45 C.F.R. Q 689.2(a)(l)(i)).
63 This is a Group I1 action (see 45 C.F.R. Q689.2(a)(2)(ii)).
   Cases M-91010001 and M-92020007 involved plagiarism in a proposal. The extent of copying in the present
  case is between these two cases. M-91010001 involves about 4 pages of text copied fiom a NSF award into an
  NSF proposal, while M-92020007 involved about 68% of the text in the proposal fiom 4 different proposals.
  Sanctions included a reprimand and certification for the former case and a reprimand and 1 year debarment for the
  latter case.
                                                  Page 9'of 10
former research group, we believe actions consistent with the past adjudicated misconduct cases
that involved 4 pages.of copied text is appropriate (see footnote 64). This would be sufficient to
protect the federal government's interest in maintaining scholarly integrity in the research it
funds.

                              RESPONSETO THE DRAFTINVESTIGATION REPORT
                    THESUBJECT'S
          The subject received a copy of the draft investigation report. He elected not to respond.65




65   Tab 10. ,
                                            Page 1O'of 10
